U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Robert David Dupuch-Carron v. Xavier Becerra,
Secretary of Health and Human Services,
S.Ct. No. 20-1468

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 16,
2021, and placed on the docket on April 20, 2021. The government’s response is due on May
20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1468
DUPUCH-CARRON, ROBERT DAVID
XAVIER BECERRA, SECRETARY OF HEALTH AND
HUMAN SERVICES

CURTIS R. WEBB
LAW OFFICE OF CURTIS R. WEBB
7495 WESTVIEW LANE
P.O. BOX 429
MONMOUTH, OR 97361
541-231-8971
CRWEBB@MINDSPRING.COM

